Cas

19-1571NoSffi®MriAL

Pagos: 3

To be cited only in accordance with Fed. R. App. P. 32.1

States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 21,2019*
Decided November 25, 2019
Before
DIANE P. WOOD, Chief Judge
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
No. 19-1571
Appeal from the United States District
Court for the Eastern District of Wisconsin.

RAFEAL D. NEWSON,
Plaintiff-Appellant,

No. 19-C-219

v.
SUPERIOR COURT OF PIMA COUNTY
and MILWAUKEE COUNTY CIRCUIT
COURT,
Defendants-Appellees.

William C. Griesbach,

Judge.

ORDER
Rafeal Newson was convicted of first-degree intentional homicide and sentenced
to life in prison after he was extradited from Arizona, where he was incarcerated, to
Wisconsin pursuant to a detainer. Almost twenty years after his conviction, he sued the
’ The defendants were not served with process and are not participating in this
appeal. We have agreed to decide the case without oral argument because the brief and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

APe&rsioik, A

Case: 19-1571

No. 19-1571

Document: 18

Filed: 11/25/2019

Pages: 3

Page 2

Superior Court of Pima County, Arizona and the Milwaukee County Circuit Court for
violating the Interstate Agreement on Detainers Act, 18 U.S.C. app. 2, § 2, during his
extradition. At screening, the district court ruled that it lacked subject-matter
jurisdiction over the case, which Newson framed as a breach-of-contract suit, because
the parties were not completely diverse. See 18 U.S.C. § 1332(a). Because Newson's
complaint fails to state a valid claim for relief, and any attempt at amendment would be
futile, we affirm the district court's dismissal.
In his complaint, Newson claims that the defendants violated the Detainer Act
when an Arizona judge allowed him to be extradited to Wisconsin in 2000 based on an
allegedly incomplete extradition packet. According to Newson, the 1996 criminal
complaint on which the extradition was based had never been filed or approved by a
judge. He seeks $32 million in compensatory and punitive damages for his loss of
liberty. He also alleges that he was "kidnapped" from Arizona and is now being "held
in slavery," and he asks the district court to order the State of Wisconsin to dismiss the
criminal complaint on which he was convicted.
The district court dismissed Newson's case at screening, see 28 U.S.C. § 1915A(b),
for lack of subject-matter jurisdiction. Taking Newson's breach-of-contract theory at
face value, the court concluded that Newson's complaint did not present a federal
question and that diversity jurisdiction was lacking because Newson and the
Milwaukee County Circuit Court were both citizens of Wisconsin. The court then
denied Newson's two motions for reconsideration, determining that he failed to state a
claim and that any attempt at amending the complaint would be futile.
On appeal, Newson continues to insist that the defendants breached a contract
with him and contends that the district court should have either dismissed the
Milwaukee County Circuit Court under Federal Rule of Civil Procedure 21 or allowed
him to amend the complaint to cure the lack of complete diversity. Newson is correct
that a court can cure jurisdictional defects by dismissing non-essential parties, see Hurley
v. Motor Coach Industries, 222 F.3d 377, 380 (7th Cir. 2000); Fed. R. Civ. P. 21, and that
litigants in this circuit are ordinarily given the chance to amend their pleadings once as
a matter of course, See Luevano v. Wal-Mart Stores, Inc., 722 F.3d 1014,1022 (7th Cir.
2013). But dismissal may still be appropriate if "it is certain from the face of the
complaint that any amendment would be futile or otherwise unwarranted." O'Boyle v.
Real Time Resolutions, Inc., 910 F.3d 338, 347 (7th Cir. 2018). That is true here.
In reviewing federal complaints, courts must analyze a plaintiff's claims, not his
legal theories. See Norfleet v. Walker, 684 F.3d 688, 690 (7th Cir. 2012). To state a claim, a

Case: 19-1571

Document: 18

Filed: 11/25/2019

Pages: 3

Page 3

No. 19-1571

plaintiff need only narrate his claim with sufficient clarity to put the defendants on
notice of its basis; he need not present legal theories at all. See Chapman v. Yellow Cab
Coop., 875 F.3d 846, 848 (7th Cir. 2017). Instead of simply adopting Newson's breach-ofcontract theory, then, the district court should have considered whether his allegations
of an illegal extradition could plausibly entitle him to relief under any theory.
Newson's suit alleges that he was extradited to Wisconsin in violation of the
Detainer Act. A suit to enforce the violation of a federal law by state actors is one under
42 U.S.C. § 1983, and the Supreme Court has held that a prisoner can state a claim under
that statute for violations of the Detainer Act. Cuyler v. Adams, 449 U.S. 433, 449 (1981).
(There are also direct remedies under the Act, but those are not relevant here.) The
district court was therefore incorrect to state in its order on reconsideration that
Newson's complaint "raised no constitutional questions or questions of federal law."
Nevertheless, we agree that dismissal of the complaint was proper. Leaving aside
the problem of seeking damages from an entity of the state, which is not a "person"
under § 1983, see Will v. Mich. Dep’t of State Police, 491 U.S. 58, 71 (1989), or from state
judges over performance of their judicial functions, see Stump v. Sparkman, 435 U.S. 349,
359-60 (1978), Newson cannot state a claim under § 1983 for the wrong he alleges—one
that took place decades ago. His request for damages for "illegal extradition" and
incarceration is blocked by Heck v. Humphrey, 512 U.S. 477 (1994). Unless his Wisconsin
conviction or sentence has been invalidated, his claim necessarily impugns their
validity. Id. at 487; Knowlin v. Thompson, 207 F.3d 907, 909 (7th Cir. 2000).
A dismissal under Heck is without prejudice and does not prevent Newson from
seeking relief that is not inconsistent with the validity of his conviction. See Polzin v.
Gage, 636 F.3d 834, 839 (7th Cir. 2011). For example, if Newson seeks release from
prison, he must proceed under 28 U.S.C. § 2254, naming his custodian as the
respondent. We express no opinion, however, on whether the violation of the Detainer
Act of which Newson complains (extradition on the basis of an allegedly incomplete
extradition package) could lend itself to collateral review. See Reedv. Clark, 984 F.2d 209,
212 (7th Cir. 1993).
We assess Newson with one "strike" for filing his complaint and a second for
pursuing this appeal. See 28 U.S.C. § 1915(g); Flynn v. Thatcher, 819 F.3d 990, 992
(7th Cir. 2016). Although he did not proceed in forma pauperis in the district court or in
this court (where he paid the filing fee after the appeal was certified to not be in good
faith), he is a "prisoner" within the meaning of § 1915(h) and therefore can incur strikes
to deter groundless litigation in the future. The judgment is AFFIRMED.

ZIPPED IX, A

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
RAFEAL D. NEWSON,
Plaintiff,
Case No. 19-C-219

v.
SUPERIOR COURT OF PIMA COUNTY, et al.,
Defendants.

SCREENING ORDER

PlaintiffRafeal D. Newson, who is currently representing himself and incarcerated at Dodge
Correctional Institution, filed a complaint for a civil case alleging breach of contract against
Defendants Superior Court of Pima County and Milwaukee County Court. Plaintiff paid the
$400.00 filing fee in this action on February 26, 2019. On February 28, 2019, Plaintiff filed a
motion for leave to proceed without prepayment of the filing fee (in forma pauperis). Because
Plaintiff has paid the filing fee, his motion to proceed in forma pauperis will be denied as moot.
The court is required to screen complaints brought by prisoners seeking relief against a
governmental entity or officer or employee of a governmental entity. 28 U.S.C. § 1915A(a). The
court must dismiss a complaint or portion thereof if the prisoner has raised claims that are legally
“frivolous or malicious,” that fail to state a claim upon which relief may be granted, or that seek
monetary relief from a defendant who is immune from such relief. 28 U.S.C. § 1915A(b).
To state a cognizable claim under the federal notice pleading system, the plaintiff is required
to provide a “short and plain statement of the claim showing that [he] is entitled to relief.” Fed. R.
Civ. P. 8(a)(2). The complaint must contain sufficient factual matter “that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 570

Case l:19-cv-00219-WCG Filed 03/01/19 Page 1 of 3 Document 7

i

APPEND IX - 6

(2007)). The court accepts the factual allegations as true and liberally construes them in the
plaintiffs favor. Turley v. Rednour, 729 F.3d 645, 651 (7th Cir. 2013). Nevertheless, the
complaint’s allegations “must be enough to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555 (citation omitted).
Plaintiff s breach of contract claim relates to his extradition from Arizona to face a homicide
charge in Wisconsin. He claims that a Circuit Court of Milwaukee County judge “rubber-stamped”
an extradition packet that included a complaint that did not bear a case number or a file stamp from
the Clerk of Court establishing that the complaint was authentic. Plaintiff asserts that the Superior
Court of Pima County erred in extraditing him based on the invalid extradition packet. He claims
he entered into a contract with the Circuit Court of Milwaukee County and the Superior Court of
Pima County, in which the defendants agreed to comply with the Interstate Agreement on Detainers
Act, and that the defendants breached the contract by improperly extraditing him from Arizona.
To the extent Plaintiff seeks to pursue state law claims of breach of contract against the
defendants, the court lacks subject matter jurisdiction. Subject matter jurisdiction cannot be waived
and may be “raised sua sponte by the court at any point in the proceedings.” Hawxhurst v.
Pettibone Corp., 40 F.3d 175, 179 (7th Cir. 1994). Diversity jurisdiction exists when there is
complete diversity of citizenship among the parties to an action and the amount in controversy
exceeds $75,000. 28 U.S.C. § 1332(a)(1). Complete diversity of citizenship means that “none of
the parties on either side of the litigation may be a citizen of the state of which a party on the other
side is a citizen.” Howell v. Tribune Entm’t Co., 106 F.3d 215, 217 (7th Cir. 1997). In this case,
complete diversity does not exist because Plaintiff and the Circuit Court of Milwaukee County are
citizens of Wisconsin. As a result, complete diversity is lacking, and this court has no subject
matter jurisdiction over this action.
2

Case l:19-cv-00219-WCG Filed 03/01/19 Page 2 of 3 Document 7

IT IS THEREFORE ORDERED that this civil action is DISMISSED for failing to allege
facts establishing that this court has subject matter jurisdiction over Plaintiffs state law claims.
Because this matter is dismissed for lack of subject matter jurisdiction, Plaintiff does not incur a
“strike” under 28 U.S.C. § 1915(g).
IT IS FURTHER ORDERED that Plaintiffs motion for leave to proceed without
prepayment of the filing fee (ECF No. 5) is DENIED as moot.
IT IS FURTHER ORDERED that the Clerk of Court enter judgment accordingly.
IT IS FURTHER ORDERED that copies of this order be sent to the officer in charge of
the agency where the inmate is confined.
Dated this 28th day of February, 2019.
s/ William C. Griesbach
William C. Griesbach, Chief Judge
United States District Court

This order and the judgment to follow are final. The plaintiff may appeal this court’s decision to the
Court of Appeals for the Seventh Circuit by filing in this court a notice of appeal within 30 days of the
entry of judgment. See Fed. R. App. P. 3, 4. This court may extend this deadline if a party timely
requests an extension and shows good cause or excusable neglect for not being able to meet the 30-day
deadline. See Fed. R. App. P. 4(a)(5)(A). If the plaintiff appeals, he will be liable for the $505.00
appellate filing fee regardless of the appeal’s outcome. If the plaintiff seeks leave to proceed in forma
pauperis on appeal, he must file a motion for leave to proceed in forma pauperis with this court. See Fed.
R. App. P. 24(a)(1). The plaintiff may be assessed another “strike” by the Court of Appeals if his appeal
is found to be non-meritorious. See 28 U.S.C. § 1915(g). If the plaintiff accumulates three strikes, he
will not be able to file an action in federal court (except as a petition for habeas corpus relief) without
prepaying the filing fee unless he demonstrates that he is in imminent danger of serous physical injury.
Id.
Under certain circumstances, a party may ask this court to alter or amend its judgment under Federal Rule
of Civil Procedure 59(e) or ask for relief from judgment under Federal Rule of Civil Procedure 60(b).
Any motion under Federal Rule of Civil Procedure 59(e) must be filed within 28 days of the entry of
judgment. Any motion under Federal Rule of Civil Procedure 60(b) must be filed within a reasonable
time, generally no more than one year after the entry of judgment. The court cannot extend these
deadlines. See Fed. R. Civ. P. 6(b)(2).
A party is expected to closely review all applicable rules and determine, what, if any, further action is
appropriate in a case.

3

Case l:19-cv-00219-WCG Filed 03/01/19 Page 3 of 3 Document 7

Case: 19-1571

Document: 23

Filed: 01/24/2020

Pages: 1

Unitei! States ©curt of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 24, 2020
Before
DIANE P. WOOD, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
No. 19-1571
Appeal from the United States District
Court for the Eastern District of
Wisconsin.

RAFEAL D. NEWSON,
Plaintiff-Appellant,
v.

No. 19-C-219
SUPERIOR COURT OF PIMA COUNTY
and MILWAUKEE COUNTY CIRCUIT
COURT,
Defendants-Appellees.

William C. Griesbach,
Judge.

ORDER
No judge of the court having called for a vote on the Petition For Rehearing
En Banc filed by Plaintiff-Appellant, Rafeal D. Newson, on December 12, 2019, and all
of the judges on the original panel having voted to deny the Petition for Rehearing,
IT IS HEREBY ORDERED that the Petition For Rehearing and Rehearing En Banc
is DENIED.

A??twfiiK £
/

